No. 20-14
In the

Supreme Court of the United States

CONGREGATION RABBINICAL COLLEGE
OF TARTIKOV, INC., et al.,
Petitioners,
v.
VILLAGE OF POMONA, NEW YORK, et al.,
Respondents.

On Petition for a Writ of Certiorari to the United
States Court of A ppeals for the Second Circuit

BRIEF IN OPPOSITION
Thomas J. Donlon
Counsel of Record
John F.X. Peloso, Jr.
Robinson & Cole LLP
1055 Washington Boulevard
Stamford, CT 06901
(203) 462-7500
tdonlon@rc.com
Counsel for Respondents

299292

A
(800) 274-3321 • (800) 359-6859

i
QUESTION PRESENTED
Whether the court of appeals correctly held that
Petitioners failed to establish a concrete, non-speculative
injury sufficient for constitutional standing under Article
III for RLUIPA and related claims concerning local
zoning laws, which were not based on allegations of
religious discrimination.

ii
TABLE OF CONTENTS
Page
QUESTION PRESENTED . . . . . . . . . . . . . . . . . . . . . . . . i
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . . . ii
TABLE OF CITED AUTHORITIES . . . . . . . . . . . . . .  iii
OPINIONS BELOW . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
JURISDICTION  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
STATEMENT  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
ARGUMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
I.

The Court Of Appeals Properly Applied
This Court’s Precedents To Decide That
Petitioners Lacked Article III Standing . . . . . . . 7

II. The Court Of Appeals Decision Does Not
Conflict With That Of Any Other Court . . . . . . . 8
III. T he Rev iew Sought By Pet it ioners
Will Not Change The Result Below . . . . . . . . . . 10
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13

iii
TABLE OF CITED AUTHORITIES
Page
CASES
Clapper v Amnesty Int’l,
568 U.S. 398 (2013)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
Lujan v. Defenders of Wildlife,
504 U.S. 555 (1992) . . . . . . . . . . . . . . . . . . . . . . 4, 6, 8, 9
National Organization for Marriage v. Walsh,
714 F.3d 682 (2d Cir. 2013) . . . . . . . . . . . . . . . . . . . . . . 9
Raines v. Byrd,
521 U.S. 811 (1997)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
Spokeo v. Robins,
136 S. Ct. 1540 (2016)  . . . . . . . . . . . . . . . . . . . . . . . . . . 7
Texas v. Mead,
465 U.S. 1041 (1984)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
Thole v. U.S. Bank, N.A.,
140 S. Ct. 1615 (2020)  . . . . . . . . . . . . . . . . . . . . . . . . . . 7
U.S. v. Johnston,
268 U.S. 220 (1925) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
Williamson County Reg’l Planning Commn. v.
Hamilton Bank,
473 U.S. 172 (1985)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 10

iv
Cited Authorities
Page
STATUTES
29 U.S.C. § 1254(1) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
Local Law No. 1 of 2001 . . . . . . . . . . . . . . . . . . . . . . passim
Local Law No. 5 of 2004  . . . . . . . . . . . . . . . . . . . . . passim
Local Law No. 1 of 2007  . . . . . . . . . . . . . . . . . . . . . . 3, 4, 5
Local Law No. 5 of 2007  . . . . . . . . . . . . . . . . . . . . . . 3, 4, 6
OTHER AUTHORITIES
Supreme Court Rule 10 . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
U.S. Const. Article III . . . . . . . . . . . . . . . . . . . . . . . passim

1
OPINIONS BELOW
The opinion of the court of appeals (Pet. App. 1a-91a)
is reported at 945 F.3d 83. The decision and orders of the
district court (Pet. App. 92a-232a, 233a-407a, 408a-535a)
are reported at 280 F. Supp. 3d 426, 138 F. Supp. 3d 352
and 915 F. Supp. 2d 574.
JURISDICTION
The judgment of the court of appeals was entered on
December 20, 2019. A petition for rehearing was denied on
February 6, 2020. On March 19, 2020, this Court entered
an order extending the time within which to file a petition
for certiorari to 150 days from the date of the lower court
judgment or order denying a timely petition for rehearing.
The petition was filed on July 6, 2020. The jurisdiction of
this Court is invoked under 29 U.S.C. § 1254(1).
STATEMENT
The Village of Pomona was incorporated in 1967.
Pet. App. 14a. From its inception, the Village focused on
maintaining a rural, family home character. The entire
Village has one-acre single-family zoning. Id.
In December 1999, Yeshiva Spring Valley, an Orthodox
Jewish organization, informally approached the Village
planning board about building a primary and pre-school.
Pet. App. 15a. Yeshiva Spring Valley had purchased
a 100-acre parcel that had previously been used for a
summer camp by Jewish organizations. Id. Yeshiva Spring
Valley sought to expand the religious school it operated
in a nearby town. In response to inquiries by members

2
of the Village planning board, Yeshiva Spring Valley’s
representative, Rabbi Fromowitz, assured that it had no
intention to have dormitories, because “[p]rimary school
children should be living at home.” Pet. App. 17a.
Following Rabbi Fromowitz’s presentation, the
Village’s outside planning consultant commented that
he had looked at the zoning for schools and considered it
inadequate. He recommended that the Village consider
updating its laws so the zoning “wouldn’t restrict [Yeshiva
Spring Valley] from doing what they want to do but would
assure the Village” that any future development on the
property would be controlled. Pet. App. 18a.
The consultant prepared amendments to the Village
zoning laws, requiring schools to meet particular zoning
restrictions and apply for a special permit. Schools and
Educational Institutions would be limited to kindergarten,
primary and secondary grades, be accredited by the State
of New York, and not have dormitories. Pet. App. 20a-21a.
In January 2001, the Village Board adopted Local Law
No. 1 of 2001 (the “2001 Law”), which incorporated the
consultant’s recommendations. Pet. App. at 22a. See also
2d Cir. Trial Exhibits, p. TE 1482-1485 (hereinafter “TE
____”). Under the 2001 Law, Yeshiva Spring Valley could
still build its planned primary school. Pet App. at 62a.
In 2003, a new Village Attorney was hired. She
conducted a review of the Village’s laws and proposed a
modernization, which led to the enactment of 22 new laws.
TE 1890. As part of this process, in September 2004, the
Village enacted Local Law 5 of 2004 (the “2004 Law”).
TE 1488-1491. It “liberalized several features of the then
existing zoning laws,” principally the 2001 Law. Pet. App.

3
69a. The 2004 Law allowed traditional dormitories (but not
single-family, two-family or multi-family dwelling units),
permitted accreditation by other recognized accrediting
agencies, and added colleges, graduate and post-graduate
institutions. Id. These amendments “added no new
restrictions” and “would not have prevented [Yeshiva
Spring Valley] from developing the Subject Property.”
Id.; see also id. at 27a.
When the Village adopted the 2004 Law, it was
unaware that, less than a month earlier, Yeshiva Spring
Valley had sold the property to Congregation Rabbinical
College of Tartikov, Inc. (“Tartikov”) for $13 million. Pet.
App. 24a. The parties stipulated that the Village did not
learn of the sale until November 2004. Id. at 24a-25a.
In late 2006, the Village Attorney drafted two zoning
amendments, which would restrict the size of dormitories
and impose limits on construction near wetlands. Pet.
App. 33a-34a. A public hearing to discuss amendments
in December 2006 was continued until January 2007, at
Tartikov’s request. Id. at 35a. Before that hearing was
held, a report surfaced in a local newspaper that Tartikov
intended to build a rabbinical college with housing for
1,000 families, which would more than double the Village’s
population. Id. at 36a-37a. At the January 2007 hearing,
even though Tartikov had not submitted a formal proposal,
local residents focused on the newspaper’s revelations
rather than the proposed zoning amendments. Id. at
38a-39a. Following the hearing, the Village Board adopted
Local Law 1 of 2007 (the Dormitory Law) (id. at 43a), and
in April Local Law 5 of 2007 (the Wetlands Law) (together,
the “2007 Laws”). Id. at 48a.

4
Tartikov never sought a special permit to build its
rabbinical college (id. at 48a), nor did it submit a formal
building proposal, seek a variance, or take any steps to
assess or alter the effects of the Village zoning. Id. at 55a.
In July 2007, Tartikov, along with certain prospective
teachers and students (the Petitioners), filed the present
action in district court bringing both facial and as-applied
challenges to the 2001, 2004 and two 2007 local laws.
Petitioners’ complaint raised claims under the federal and
state constitutions, as well as RLUIPA and other statutes.
Pet. App. 48a.
The district court dismissed Petitioners’ as-applied
challenges. Id. After a 10-day bench trial in May 2017,
the district court ruled that all four challenged laws were
unconstitutional as enacted with intent to discriminate
against the Orthodox/Hasidic Jewish community. Pet.
App. 49a; 119a. In addition to striking down the four
laws, the district court issued an injunction exempting
Tartikov from the special permit requirement while
establishing specific measures and timelines for the
Village’s processing of any future application by Tartikov,
including the environmental review required by state law.
2d Cir. Special Appendix, pp. SPA1-SPA5.
The court of appeals reversed the district court in
large measure. It first considered Petitioners’ standing,
dividing the claims into two categories, those based
on unequal treatment of a religious group and those
concerning other restrictions on Tartikov’s use of the
property. Applying this Court’s three-part test from
Lujan v. Defenders of Wildlife, 504 U.S. 555, 560 (1992),
the court of appeals held that Petitioners had standing
to pursue the first group of constitutional and RLUIPA

5
claims based on intent to discriminate on the basis of
religion but not the second group, which merely alleged
that the challenged laws prevented Tartikov from building
its rabbinical college. Pet. App. 53a-55a. In the absence
of a formal proposal, permit application, or “any other
conduct that would implicate or invoke the operation of
the challenged zoning laws,” the court concluded that
any injury as to the second category of claims was only
conjectural. Id. at 55a.
The court of appeals then considered each of the four
challenged laws in turn to decide if the district court’s
ruling on discriminatory purpose was clearly erroneous.
The court of appeals determined that the evidence was
“insufficient to support an inference that the 2001 Law was
enacted to discriminate against [Yeshiva Spring Valley]
in particular or Hasidic Jews in general.” Pet. App. 59a.
Central to this determination was the fact, repeatedly
stated, that the 2001 Law would not have prohibited
Yeshiva Spring Valley from building the school it proposed.
See id. at 60a; 62a; 64a. The court of appeals concluded
that the 2001 Law would not “thwart or exclude [Yeshiva
Spring Valley] from the Village.” Id. at 67a.
Similarly, the court of appeals held that the 2004
Law liberalized parts of the 2001 Law, easing the zoning
requirements for Yeshiva Spring Valley (which the Village
believed still owned the property), and would have allowed
construction of its school. Id. at 69a. “These measures
would not have impeded [Yeshiva Spring Valley’s] planned
project.” Id. As there was not enough evidence “that the
Village acted with discriminatory intent in adopting the
2001 and 2004 local laws,” the court of appeals reversed the
district court’s finding of those laws’ unconstitutionality.

6
Id. at 75a; 91a. Petitioners do not seek review of this
holding.
As to the 2007 Laws, the court of appeals reached
a different conclusion. The court held there was no
clear error regarding the district court’s finding of
discriminatory purpose and discriminatory effect in the
2007 Laws. Pet. App. 83a; 86a.
The court of appeals vacated the affirmative injunctive
relief that the district court had imposed because it went
“much further than is needed to remedy the injuries that
Tartikov actually suffered….” Pet. App. 88a. The court
limited relief to enjoining the Village from enforcing the
2007 Laws. Id. Petitioners do not seek review of the court
of appeals’ ruling as to the proper remedy.
ARGUMENT
The court of appeals applied the correct tripartite
test from Lujan, which Petitioners agree controls. Pet. 14.
Petitioners’ dispute with the court of appeals’ fact-bound
conclusion as to the result of the application of that test is
not a proper basis for review. The court of appeals’ decision
does not conflict with that of any other court of appeals.
Petitioners’ alleged conflict concerns separate concepts
of ripeness that the court of appeals did not consider or
discuss. This case is also an unsuitable vehicle for review
both because the question presented by Petitioners would
not change the result below and because an alternate
ground for affirmance exists.

7
I.

The Court Of Appeals Properly Applied This Court’s
Precedents To Decide That Petitioners Lacked
Article III Standing

The court of appeals concluded that it lacked
jurisdiction because Petitioners did not have standing to
pursue the claims that were not based upon allegations
of discrimination. The court of appeals relied only upon
the constitutional requirements of Article III, as set
forth in this Court’s decisions. It did not consider any
prudential factors. Petitioners’ dispute with the court of
appeals’ conclusion is a fact-bound issue regarding the
application of settled law, which is not appropriate for
certiorari review.
This Court has long recognized that “[n]o principle
is more fundamental to the judiciary’s proper role
in our system of government than the constitutional
limitation of federal-court jurisdiction to actual cases and
controversies.” Clapper v Amnesty Int’l, 568 U.S. 398, 408
(2013) quoting Raines v. Byrd, 521 U.S. 811, 818 (1997).
As an element of the case-or-controversy requirement,
plaintiffs “must establish they have standing to sue.” Id.
As the court of appeals recognized, to have Article III
standing, a plaintiff must have “(1) suffered an injury in
fact, (2) that is fairly traceable to the challenged conduct
of the defendant, and (3) that is likely to be redressed by a
favorable judicial decision.” Pet. App. 53a, quoting Spokeo
v. Robins, 136 S. Ct. 1540, 1547 (2016). See also Thole v.
U.S. Bank, N.A., 140 S. Ct. 1615, 1618 (2020).
Petitioners do not argue that the court of appeals
applied the wrong standard to determine Article III

8
standing. Nor could they: the court of appeals faithfully
applied the Lujan test explaining that an injury in fact
must be “‘concrete and particularized’ and ‘actual or
imminent, not conjectural or hypothetical’” in order to
establish Article III standing. Pet. App. 53a.
Instead, Petitioners primarily contend that the court
incorrectly applied the Lujan test. Pet. 13-14. That is
merely a request for error correction that is unworthy of
review. See Sup.Ct. R. 10; see also Texas v. Mead, 465 U.S.
1041, 1043 (1984) (Stevens, J.) quoting U.S. v. Johnston,
268 U.S. 220, 227 (1925) (“We do not grant a certiorari to
review evidence and discuss specific facts”).
In any event, the court of appeals’ fact-bound decision
was correct in light of Tartikov’s failure to offer a concrete
proposal or to apply for any relief from the pre-existing
zoning.1
II. The Court Of Appeals Decision Does Not Conflict
With That Of Any Other Court
Petitioners contend that the decision below is at odds
with certain other circuit courts of appeals on the question
of “ripeness.” Pet. 11 (emphasis in original). Petitioners
claim “a well-developed split among eight of the Circuit
Courts of Appeals regarding the applicable ‘ripeness’ test
for RLUIPA claims …” Id. This argument is based upon
1. Petitioners incorrectly contend the court of appeals
created a prerequisite to standing that a party must seek a
legislative change in the law. Pet. 16. See also id. at 15 n.10; 16
n.11; 23-4. The court of appeals decision neither expressly nor
implicitly imposed such a requirement.

9
a misunderstanding of the decision below. Petitioners
have misinterpreted the court of appeals decision based
on standing as one predicated on ripeness.
The court of appeals did not consider ripeness, or any
prudential factors, in determining that Petitioners lacked
standing. It relied solely on Article III constitutional
requirements. See Pet. App. 54a (“Whether Tartikov
has standing to pursue each group of claims turns on
whether the alleged injury is an injury in fact for Article
III purposes”). The court of appeals did not mention
ripeness in its discussion of standing or anywhere else
in its opinion. 2
Petitioners’ misunderstanding is apparent in a
footnote, which asserts that “[w]hile the Second Circuit
used the term ‘standing,’ it specifically applied the concept
of ripeness.” Pet. 13 n.9. The actual language of the court
of appeals decision, and its reliance on this Court’s test
for Article III standing from Lujan, demonstrate this is
incorrect. Petitioners’ footnote (id.) cites language from
a different decision by the court of appeals, National
Organization for Marriage v. Walsh, 714 F.3d 682 (2d Cir.
2013). The decision in the present case did not cite that
opinion. Nor did the court of appeals refer to any other
decisions regarding ripeness. Ripeness was simply not
part of the court of appeals’ analysis.

2. Even in ruling against Petitioners’ cross-appeal of the
district court’s dismissal of their as-applied challenges as unripe
(see Pet. App. 48a), the court of appeals did not rely upon ripeness
principles, but rather the insufficient evidence of discriminatory
animus. Id. at 89a-90a.

10
Petitioners also argue that the court of appeals
“stretch[ed] this Court’s decision in Williamson Cnty.
Reg’l Planning Comm’n v. Hamilton Bank, 473 U.S.
172 (1985), far beyond its original context …” Pet. 16.
The court of appeals did not rely upon any aspect of
Williamson County in ruling on standing, nor did it cite
that case in its opinion. This argument also is based on a
misunderstanding of the court of appeals’ decision.
Petitioners lengthy argument that courts of appeals
are divided over the test for ripeness and the applicability
of Williamson County (see Pet. 16-32) is irrelevant to
whether or not certiorari should be granted in this case.
Regardless of whether such a split exists (which the
Village questions), none of the asserted issues concerning
ripeness are implicated by the court of appeals’ decision,
which limited its standing determination to Article III
constitutional requirements. As that determination does
not conflict with any decision of this Court, or another
court of appeals, it does not warrant review by this Court.3
III. The Review Sought By Petitioners Will Not Change
The Result Below
Even if this case did present the conf lict that
Petitioners assert – and it does not – this present case
would be an unsuitable vehicle for this Court’s review.
Petitioners specifically limited their request for
review to the 2004 Law. Their petition states “[t]he 2001
3. Petitioners concede that all of the courts of appeals require
a RLUIPA claimant to initially meet Article III standards for
standing. See Pet. 10.

11
Law is not at issue in this Petition.” Pet. 4 n.5. Petitioners
contend that the 2004 Law “completely prohibit[s] the
rabbinical college from existing within Pomona.” Pet. 5.
They state that the 2004 Law, while permitting traditional
dormitories, “expressly forbade family dwelling units
as dormitories and dormitory rooms with separate
cooking, dining or housekeeping facilities.” Pet. 6; see
Pet. 14. Further, Petitioners contend “[t]he 2004 Law also
prohibited non-accredited Educational Institutions, which
also excludes the rabbinical college,” because Tartikov
could not be accredited. Pet. 6; see Pet. 14. In Petitioners’
view, these provisions alone, or in combination, preclude
construction of its rabbinical college.
The 2001 Law, however, contains similar, and more
restrictive, provisions. It prohibits dormitories of any
kind, defining schools as “not including any institution with
a dormitory.” TE-1482. Both the court of appeals and the
district court recognized that dormitories “had not been
permitted under the 2001 Law.” Pet. App. 69a. See also id.
at 106a. Further, the 2001 Law created the accreditation
requirement, as all educational institutions had to be “duly
licensed by the State of New York.” TE 1482.4 The 2001
Law limited educational institutions to “kindergartens,
primary and secondary schools” (TE 1482), which did not
allow colleges, graduate or post-graduate schools. See Pet.
App. 26a; 69a.
The 2004 Law “liberalized certain provisions of the
Village law related to educational institutions – including
provisions of the 2001 Law.” Pet. 26a. The 2004 Law
4. The district court even referred to the 2001 Law as the
“Accreditation Law.” Pet. App. 127a.

12
allowed dormitories for the first time, loosened the
accreditation requirements to allow other accrediting
agencies besides the State of New York, and permitted
college, graduate and post-graduate institutions. Pet.
App. 69a. See also id. at 26a; TE 1488. To the extent the
2004 Law would not allow Tartikov to build a rabbinical
college, the 2001 Law also would not allow it.
The court of appeals’ ruling that Petitioners had no
standing to challenge claims not based on discrimination
applied equally to the 2001 Law. As their petition
specifically does not seek review of that holding, even if
the petition was granted and the 2004 Law invalidated, the
more restrictive barriers of the 2001 Law would remain.
In addition, as the court of appeals pointed out (see
Pet. App. 90a n.289), Tartikov purchased the property
from Yeshiva Spring Valley three years after enactment
of the 2001 Law. Tartikov’s representative conceded that
Tartikov did no due diligence concerning the existing
zoning. 2d Cir. Appendix, pp. A919-A923. Had Tartikov
done so, it would have discovered that the existing zoning
would not have allowed construction of its rabbinical
college.
In these circumstances, the court of appeals pointed
out, “buying into an injury in fact does not suffice for
Article III standing.” Pet. 90a n.289. The court of appeals
recognized the same problem extended to the 2004 Law
that “is effectively a more permissive version of the 2001
Law.” Id. Although the court of appeals did not rest
its decision on this basis (id.), it forms an alternative
ground for affirmance. Both Petitioners’ election not to
seek review of the 2001 Law and Tartikov’s purchase of

13
property already subject to zoning restrictions, make this
case an unsuitable vehicle for this Court’s review.
CONCLUSION
The petition for a writ of certiorari should be denied.
Respectfully submitted,
Thomas J. Donlon
John F.X. Peloso, Jr.
Robinson & Cole LLP
1055 Washington Boulevard
Stamford, CT 06901
(203) 462-7500
tdonlon@rc.com
Counsel for Respondents
October 19, 2020

